TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Affordable Care Act – The Income
                       and Family Size Verification Project:
                         Improvements Could Strengthen
                          the Internal Revenue Service’s
                       New Systems Development Process



                                          March 29, 2013

                              Reference Number: 2013-23-034




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                 HIGHLIGHTS


AFFORDABLE CARE ACT –                                WHAT TIGTA FOUND
THE INCOME AND FAMILY SIZE
                                                     By the end of August 2012, the IFSV Project had
VERIFICATION PROJECT:                                completed all six systems development
IMPROVEMENTS COULD STRENGTHEN                        components, each delivering a piece of
THE INTERNAL REVENUE SERVICE’S                       approved functionality. While cost data specific
NEW SYSTEMS DEVELOPMENT                              to the IFSV Project were not readily available
PROCESS                                              during this audit, the IRS is generally managing
                                                     systems development risk areas with the

Highlights                                           implementation of the new Iterative Path within
                                                     the Enterprise Life Cycle. However, process
                                                     improvements are needed to better ensure that
Final Report issued on March 29, 2013                (1) the IFSV Project team adheres to
                                                     configuration management guidelines when
Highlights of Reference Number: 2013-23-034          baselined requirements are changed and (2) the
to the Internal Revenue Service Chief                ACA Program Configuration Control Board
Technology Officer.                                  emergency meeting processes are effectively
                                                     communicated. Further, an integrated suite of
IMPACT ON TAXPAYERS
                                                     automated tools could improve requirements
In March 2010, the President signed into law the     management and testing for the IFSV Project.
Patient Protection and Affordable Care Act
(ACA) to provide more Americans with access to       WHAT TIGTA RECOMMENDED
affordable health care by January 1, 2014. The       TIGTA made three recommendations to the
Income and Family Size Verification (IFSV)           Chief Technology Officer. In management’s
Project is a core project of the ACA Program         response to the report, the IRS agreed with our
and will support open enrollment beginning in        first two recommendations and plans to
October 2013. The IFSV Project is important to       implement corrective actions for both.
the functionality and success of the ACA
Program because it is responsible for                However, the IRS disagreed with our third
developing a solution that will verify income and    recommendation to implement a standard suite
family size, based on tax return data, for           of integrated, automated tools for the ACA
determining an individual’s eligibility for the      Program and ACA projects to manage sprint
advanced premium tax credit for health               processes, develop and manage requirements,
insurance.                                           develop and manage test cases, and
                                                     bidirectionally trace requirements and test
WHY TIGTA DID THE AUDIT                              cases. Notwithstanding the IRS’s response,
                                                     TIGTA believes that an action plan to address
This audit was initiated to determine whether the
                                                     this recommendation would permit the IRS to
IRS adequately managed systems development
                                                     better ensure long-term success for the IFSV
risk for the IFSV Project. Specifically, TIGTA
                                                     Project along with the many other information
evaluated whether the IFSV Project adequately
                                                     technology components and systems supporting
managed project management risk related to the
                                                     new functionality and transactions required to
new Iterative Path of the Enterprise Life Cycle
                                                     address its mission-critical capabilities under the
and whether the IFSV Project developed a
                                                     ACA.
security plan to protect taxpayer data. To
accomplish these objectives, TIGTA reviewed          Lastly, the IRS disagreed with the statement in
high-risk areas related to the IRS applying the      the report that cost data were not readily
new Iterative Path to the IFSV Project as its        available during the audit. TIGTA maintains that
systems development life cycle rather than a         cost information was not readily available
traditional sequential life cycle (e.g., Waterfall   because it took the IRS 28 business days to
Systems Development Life Cycle Path). TIGTA          provide basic budget and cost data.
also considered information technology security
documentation for the IFSV Project.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 29, 2013


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Affordable Care Act – The Income and
                             Family Size Verification Project: Improvements Could Strengthen
                             the Internal Revenue Service’s New Systems Development Process
                             (Audit 201220312)

 This report presents the results of our review of how the Income and Family Size Verification
 Project managed the new Iterative Path as its systems development life cycle. The overall
 objective of this review was to determine whether the Internal Revenue Service (IRS) is
 adequately managing systems development risk for the Income and Family Size Verification
 Project under the Affordable Care Act Program. This audit was included in the Treasury
 Inspector General for Tax Administration Fiscal Year 2012 Annual Audit Plan and addresses the
 major management challenge of Implementing Major Tax Law Changes.
 We request that the IRS Acting Commissioner submit, within 30 calendar days of the final report
 issuance date, a written reply regarding the disagreed recommendation to the Assistant Secretary
 for Management and Chief Financial Officer of the Department of the Treasury, with a copy to
 the Treasury Inspector General for Tax Administration.
 Management’s complete response to the draft report is included as Appendix V in the attached
 PowerPoint presentation.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me or Alan Duncan, Assistant Inspector General for Audit
 (Security and Information Technology Services), if you have questions.

 Attachment
              TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




         Affordable Care Act – The Income and Family
        Size Verification Project: Improvements Could
          Strengthen the Internal Revenue Service’s
              New Systems Development Process

                                                          March 29, 2013
                                       Reference Number: 2013-23-034
           This report has cleared the Treasury Inspector General for Tax Administration disclosure review process and information
                      determined to be restricted from public release has been redacted from this document.




Phone Number | 202-622-6500
E-mail Address | TIGTACommunications@tigta.treas.gov
Website        | http://www.treasury.gov/tigta
                         Table of Contents
Background……………………………………………………………………….                                              5
Audit Objective…………………………………………………………………...                                         10
Results of Review…………………………………………………………………                                          11
  The IFSV Project Is Generally Managing Systems Development Risk Areas………....      12
  The IFSV Project Did Not Always Adhere to Configuration Management Guidelines..   14
       Recommendation 1:……………………………………………...……...…...                               16
  Communication of Configuration Management Processes Would Improve
  Implementation of the Iterative Path…………………………………………………...                        17
       Recommendation 2:………………………..………………………………...                                  19
  An Integrated Suite of Tools Could Improve Requirements Management for the
  IFSV Project…………………………………………………………………………….                                        20
       Recommendation 3:………………………...…..……………….…………...                               21
Appendices………………………………………………………………………..                                             24
  Appendix I – Detailed Objective, Scope, and Methodology…………………………...              24
  Appendix II – Major Contributors to This Report……………………………………...                  27
Appendix III – Report Distribution List………………………………………………...        28
Appendix IV – Glossary of Terms………………………………………………………                29
Appendix V – Management’s Response to the Draft Report……………………………   33
                  Abbreviations
Abbreviation                              Description
    ACA        Affordable Care Act
    CCB        Configuration Control Board
    ELC        Enterprise Life Cycle
   IFSV        Income and Family Size Verification
    IRS        Internal Revenue Service
   PMO         Program Management Office
   TIGTA       Treasury Inspector General for Tax Administration
                                          Background
   In March 2010, the President signed into law the Patient Protection and
    Affordable Care Act (ACA)1 to provide more Americans with access to
    affordable health care by January 1, 2014.
   Much of the ACA is funded by changes to the tax law. As the Federal
    agency that administers the tax laws, the Internal Revenue Service (IRS)
    will administer the tax provisions included in the ACA legislation.
   The IRS ACA Information Technology Program Management Office
    segmented implementation of the ACA into various releases.
   Figure 1 provides a brief description of the ACA releases.




_________________________

1 Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as
amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
                                                                                                               5
                       Figure 1: Description of ACA Releases

ACA
Release       Go Live Date          Description
ACA 1.0       In Production         Includes the functionality of several ACA provisions, e.g., the
              January 2011          Small Business Healthcare Tax Credit and the Charitable
                                    Hospital Reporting provisions.
ACA 2.0       In Production         Includes functionality to support the Branded Prescription Drug
              July 2011             provision of the ACA.
ACA 3.0       October 2013          Includes the functionality of the following ACA process areas:
                                    Eligibility and Enrollment, Customer Service, Reporting, and
                                    Non-Exchange.
ACA           January–October       This release will build on the transactional and bulk data
4.0/4.1       2014                  processes established in ACA 3.0, will expand the breadth of
                                    data stored in the data repository, and will enhance reporting
                                    capabilities.
ACA 5.0       June 2015             Includes the functionality of at-filing compliance.
ACA 6.0       December 2015         Includes the functionality of post-filing compliance.

Sources: Affordable Care Act Program Baseline Requirements, Solution Architecture and IT Roadmap,
Version 2.2; Affordable Care Act Program Management Office Program Management and Integration Plan,
Version 1.0; and the Implementing Tax Law Changes From the Affordable Care Act in the IRS Information
Technology Briefing dated August 27, 2012.                                                              6
   ACA 3.0 is focusing on the Eligibility and Enrollment process area. As
    part of ACA 3.0, the Income and Family Size Verification (IFSV) Project
    will support open enrollment and is one of six core ACA Program projects
    being implemented in October 2013.
   Based on tax return data, the IFSV Project will verify income and family
    size for individuals requesting eligibility for an advanced premium tax
    credit for health insurance.
   Due to ongoing interpretation of provisions established by the ACA
    legislation, the IRS decided to apply the new Iterative Path to the IFSV
    Project as its Systems Development Life Cycle, rather than a traditional
    sequential life cycle (e.g., Waterfall Systems Development Life Cycle
    Path).




                                                                               7
   The new Iterative Path of the Enterprise Life Cycle (ELC) is considered
    an agile2 approach to systems development and is suited for projects that
    change quickly and have requirements that are undefined. The Iterative
    Path facilitates development of the defined requirements while other
    requirements are being established.
   Under the new Iterative Path, a process known as “sprints” develops a piece
    of functionality of the system with repeated cycles of requirements
    discovery, planning, design, development, and testing.




_________________________

2 The IRS applies the term “agile” to represent a type of software development methodology based on iterative
and incremental methods that promotes teamwork, collaboration, and process adaptability throughout the life-
cycle of the project.                                                                                         8
   Benefits expected by the ACA Program Management Office (PMO) with
    the implementation of the Iterative Path include:
        Increased collaboration between stakeholders and the information
         technology development team.
        Incremental functionality and shorter time periods through sprints.
        Better alignment between the product and stakeholders’ requests.
   The IFSV Project is being developed primarily by IRS employees within
    the ACA PMO.
   Cost data specific to the IFSV Project were not readily available during
    our audit.




                                                                               9
                           Audit Objective
   Determine whether the IRS is adequately managing systems development
    risk for the IFSV Project under the ACA Program.
        Evaluate whether the IFSV Project is adequately managing project
         management risk related to the new Iterative Path of the ELC.
        Determine whether the IFSV Project has developed a security plan to
         protect taxpayer data and whether Federal requirements have been
         considered.




                                                                               10
                       Results of Review
   The IFSV Project Is Generally Managing Systems Development Risk Areas
    (see slides 12 through 13).
   The IFSV Project Did Not Always Adhere to Configuration Management
    Guidelines (see slides 14 through 16).
   Communication of Configuration Management Processes Would Improve
    Implementation of the Iterative Path (see slides 17 through 19).
   An Integrated Suite of Tools Could Improve Requirements Management
    for the IFSV Project (see slides 20 through 23).




                                                                         11
              The IFSV Project Is Generally Managing
                Systems Development Risk Areas

   The IFSV Project is generally managing risk areas when using the new
    Iterative Path of the ELC. Specifically, in the areas of:
        Stakeholder involvement – Stakeholders are committed to the new
         Iterative Path process, embedded in the IFSV Project team, and involved on
         a continuous basis by providing feedback to the project team.
        Project planning activities – The IFSV Project conducted sprint planning
         activities to identify and prioritize requirements to be coded
         and tested and received stakeholder agreement on tasks to be completed
         during a sprint.
        Sprint systems development and testing activities – Controls are in place
         to ensure that requirements are coded and tested during a sprint and that
         stakeholders approve sprint results prior to starting the next sprint.
        Iterative Path lessons learned – The IFSV Project incorporated lessons
         learned from a prior ACA project that piloted the new Iterative Path
         methodology.



                                                                                      12
   A security plan intended to protect taxpayer data was developed that
    incorporated Federal Information Security Management Act and National
    Institute of Standards and Technology guidelines.
   The IRS informed us that governance models, including Control Objectives
    for Information Technology, were considered and evaluated to complement
    the IRS’s ELC to provide a control framework for the design and
    development of all IRS information technology projects. We performed a
    limited assessment of the overall ELC control framework for the IFSV
    Project.
   By the end of August 2012, the IFSV Project had completed all six scheduled
    sprints, each developing a piece of approved functionality including receiving
    and validating requests for household income verification and family size,
    locating tax records based on information in the requests, and calculating
    individual and household modified adjusted gross income.
   The IRS is currently conducting project integration testing of ACA 3.0,
    which includes the IFSV Project.

                                                                                 13
                 The IFSV Project Did Not Always Adhere
                 to Configuration Management Guidelines

   The ACA Program Configuration Management Plan requires that a change
    request and impact assessment be prepared and approved to change
    baselined requirements.
                                          3
   We judgmentally sampled and reviewed six of 19 total IFSV Project
    change requests as of July 5, 2012. We selected these six because they
    were designated by the IRS as critical.
   We determined these six critical change requests were processed in
    accordance with the configuration management guidelines.
   We also judgmentally sampled and reviewed six of 61 baselined
    requirements to determine whether possible changes to the requirements
    adhered to configuration management guidelines. We selected six
    baselined requirements, which are each important to the basic functionality
    of the IFSV Project. A change request and impact assessment should be
    prepared for every changed requirement.
_________________________

3 A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the
population.                                                                                               14
   Four of the six baselined requirements that we sampled were changed. Our
    review determined that the IFSV Project team did not adequately prepare a
                   4
    change request and an impact assessment for one of these four requirements.
   Specifically, the change request and impact assessment did not include the
    requirement or address the potential impact of the change on other ACA
    requirements.
   If configuration management guidelines are not properly followed, IRS
    management may not be able to determine the potential impact of changed
    requirements on IFSV Project requirements, other ACA projects, and system
    functionality. As a result, all functionality may not be properly developed,
    which could negatively impact ACA Program deployment.
   Management Action: Once we advised the IFSV Project Manager of this
    finding, a change request and impact assessment were prepared and approved
    during our audit fieldwork.

_________________________
4 This change request for a baselined requirement is intended to ensure that if any Social Security
Administration Name Control in the Health and Human Services’ request does not match the Name Control in
the National Account Profile record by Taxpayer Identification Number, the IFSV shall not provide tax record 15
information for any applicant listed on the request.
                             Recommendation

   Recommendation 1: The Chief Technology Officer should complete a
    broader review to evaluate the effectiveness of existing controls to ensure
    that change requests and impact assessments are adequately developed and
    processed as required by the ACA Program Configuration Management
    guidelines.
       Management’s Response: The IRS agreed with this
        recommendation. The IRS plans to conduct a review across the ACA
        PMO to evaluate the effectiveness of existing controls for change
        requests and impact assessments.




                                                                                  16
                   Communication of Configuration
                 Management Processes Would Improve
                  Implementation of the Iterative Path
   The ACA Program Configuration Management Plan outlines change
    management processes for the ACA Program and projects.
   The IFSV Project uses this plan as the primary guidance for change
    management. Guidance states that proposed changes to baselined
    requirements are submitted via change requests.
   The ACA PMO informed us that emergency Program Configuration
    Control Board (CCB) meetings have been convened, when needed, to
    review and approve proposed change requests.
   The ACA Program CCB Charter states that the Program CCB may meet
    monthly or convene emergency meetings to review and approve proposed
    change requests. However, the IFSV Project team expressed concern over
                                                                       5
    the Program CCB’s untimely response to an important change request
    during our review.
_________________________

5 This change request recommended that IFSV directly interface with the ACA Coverage Data Repository.
                                                                                                        17
   Further, the ACA Program Configuration Management Plan does not
    include procedures for a project to request an emergency Program CCB
    meeting prior to the next scheduled monthly meeting when a timely
    response is needed to address a change request.
   An emergency Program CCB meeting may be necessary to align with
    IFSV Project sprints that typically last only four to six weeks. Untimely
    responses to change requests by the Program CCB could result in IFSV
    Project delays and negatively impact ACA Program deployment.




                                                                                18
                            Recommendation

   Recommendation 2: The Chief Technology Officer should ensure that
    the ACA Program Configuration Management Plan is updated to include
    procedures to request and convene emergency ACA Program CCB
    meetings when timely program-level responses are needed.
       Management’s Response: The IRS agreed with this
        recommendation. The IRS plans to update the ACA Program
        Configuration Management Plan documentation, providing clear
        direction for convening emergency Program CCB meetings when
        needed.




                                                                          19
          An Integrated Suite of Tools Could Improve
        Requirements Management for the IFSV Project

   The Rational RequisitePro tool is the IRS Enterprise Architecture standard
    for requirements management. The IFSV Project team uses the Rational
    RequisitePro tool to manage their requirements. Requirements are
    manually imported into the IFSV sprint management tool, Rational Team
    Concert.
   However, Rational RequisitePro and Rational Team Concert are not
    integrated to automatically update changes to requirements in both tools.
    Therefore, the IFSV Project team must manually input changes in both
    tools to ensure that requirements are accurately updated. To ensure timely
    and consistent requirements management, this process should be integrated
    and automated.
   The IRS’s current manual process heightens the risk that requirements may
    not be timely and accurately reflected in both tools. As a result, the project
    could be developed based on inaccurate requirements, which could
    negatively impact ACA systems functionality.


                                                                                 20
                                      Recommendation

   Recommendation 3: The Chief Technology Officer should ensure that
    a standard suite of integrated, automated tools is implemented for the ACA
    Program and ACA projects to manage sprint processes, develop and
    manage requirements, develop and manage test cases, and bidirectionally
    trace requirements and test cases.
       Management’s Response: The IRS disagreed with this
        recommendation. 6 The Chief Technology Officer stated in his written
        response to the draft report that this recommendation “does not offer
        flexibility for projects that are not good candidates for automated tools.”
        Further, the Chief Technology Officer commented that “automated tools
        are not always necessary to maintain control over requirements, test
        cases management, and traceability, so we do not agree with TIGTA
        [Treasury Inspector General for Tax Administration] prescribing their
        use.”
_________________________

6 We made a similar recommendation in a previous report (TIGTA, Ref. No. 2012-20-122, Customer
Account Data Engine 2 (CADE 2): System Requirements and Testing Processes Need Improvements
(Sept. 2012)). The IRS also disagreed with this recommendation at that time.
                                                                                                 21
   Office of Audit Comment: The IRS disagreed with this
    recommendation and consequently the Chief Technology Officer does
    not plan to take corrective actions. We discussed this finding and
    recommendation with IFSV Project officials during the audit closing
    conference. At that time, we explained that this recommendation is
    specific to the ACA Program and ACA projects, and that the
    recommendation is not directed generally toward other IRS programs
    and projects.
    The IRS recognized that the current manual requirements management
    process heightens the risk that information technology requirements
    may not be timely and accurately reflected across the separate
    management tools. This audit concluded that a standard suite of
    automated tools could help the IRS to mitigate this risk. In addition,
    best practices suggest the current manual processes should be integrated
    and automated to efficiently manage sprint processes, develop and
    manage requirements, develop and manage test cases, and
    bidirectionally trace requirements and test cases.
                                                                           22
Our audit also considered that there are multiple projects under the ACA
Program, which is managing volumes of information technology
requirements in a highly dynamic environment. Consequently, TIGTA
maintains that this recommendation requires an action plan to develop and
implement a suite of integrated, automated tools to support all phases of the
ACA Program and ACA projects. Such an action plan would permit the
IRS to better ensure long-term success for the IFSV Project along with the
many other information technology components and systems supporting
new functionality and transactions required by the IRS to address mission-
critical capabilities under the ACA.
The IRS also disagreed with the statement in the report that cost data were
not readily available during the audit. We agree that cost information was
requested after the audit closing. We requested information on the IFSV
Project’s budget and actual cost data that could be provided quickly and
easily. However, it took the IRS 28 business days to provide basic budget
and cost data for the IFSV Project. TIGTA maintains that cost data
specific to the IFSV Project were not readily available during our audit, due
to the length of time it took the IRS to provide basic budget and cost data.
                                                                            23
                                                                               Appendix I
            Detailed Objective, Scope, and Methodology
   Overall Objective: Determined whether the IRS is adequately managing systems
    development risk for the IFSV Project under the ACA Program. Specifically, we:
   Evaluated whether the IFSV Project is managing project management risk related to
    the new Iterative Path of the ELC. Focus areas included:
        Culture change.
        Stakeholder involvement.
        IFSV Project planning activities.
        IFSV Project sprint systems development and testing activities.
        Control framework applied with the IFSV Project.
        IFSV Project requirements and change management – we judgmentally
         sampled and reviewed six of 19 total IFSV Project change requests. We
         selected these six because they were designated as critical. Also, we
         judgmentally sampled six of 61 baselined requirements, which are each
         important to the basic functionality of the IFSV Project. Both samples were
         selected to determine whether the configuration management guidelines were
         followed.


                                                                                       24
                                                                                  Appendix I




   Determined whether the IFSV Project developed and documented a security plan to
    protect taxpayer data and whether Federal Information Security Management Act
    and National Institute of Standards and Technology guidelines were considered.
   For conditions identified, obtained documentation and interviewed personnel to
    support and determine the cause.
   This review was performed at the Information Technology organization (formerly
    known as the Modernization and Information Technology Services organization) in
    Farmers Branch, Texas, in the ACA PMO from June through August 2012.
   We conducted this performance audit in accordance with generally accepted
    government auditing standards, which require that we plan and perform the audit to
    obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
    and conclusions based on our audit objective. We believe that the evidence
    obtained provides a reasonable basis for our findings and conclusions based on our
    audit objective.




                                                                                        25
                                                                                  Appendix I




Internal Controls Methodology
   Internal controls relate to management’s plans, methods, and procedures used to
    meet their mission, goals, and objectives. Internal controls include the processes
    and procedures for planning, organizing, directing, and controlling program
    operations. They include the systems for measuring, reporting, and monitoring
    program performance.
   We determined the following internal controls were relevant to our audit objective:
    1) the Internal Revenue Manual and related IRS guidelines and 2) the processes
    followed in the development of information technology projects using the Iterative
    Path.
   We evaluated these controls by conducting interviews with management and staff;
    making on-site observations of sprint planning, system development, and testing
    activities; and reviewing documentation.
   Documents reviewed include the IFSV Project Management Plan, the Iterative
    Development and Testing Process Description, and other documents that provided
    evidence of whether the IRS is adequately managing systems development risk for
    the IFSV Project.
                                                                                          26
                                                                              Appendix II
                   Major Contributors to This Report

   Alan R. Duncan, Assistant Inspector General for Audit (Security and Information
    Technology Services)
   Gwendolyn McGowan, Director
   Suzanne Westcott, Audit Manager
   David F. Allen, Lead Auditor
   Wallace Sims, Senior Auditor
   Linda Nethery, Information Technology Specialist




                                                                                      27
                                                                                    Appendix III
                             Report Distribution List
   Acting Commissioner C
   Office of the Commissioner – Attn: Chief of Staff C
   Deputy Commissioner for Operations Support OS
   Deputy Commissioner for Services and Enforcement SE
   Deputy Chief Information Officer for Operations OS:CTO
   Acting Director, Affordable Care Act Office SE:ACA
   Director, Privacy, Governmental Liaison and Disclosure OS:P
   Associate Chief Information Officer, Affordable Care Act – Program Management Office
    OS:CTO:ACA
   Chief Counsel CC
   National Taxpayer Advocate TA
   Director, Office of Legislative Affairs CL:LA
   Director, Office of Program Evaluation and Risk Analysis RAS:O
   Office of Internal Control OS:CFO:CPIC:IC
   Audit Liaisons:
        Deputy Commissioner for Services and Enforcement SE
        Director, Risk Management Division OS:CTO:SP:RM

                                                                                           28
                                                                                                       Appendix IV
                                       Glossary of Terms

Term                                                            Definition
Change Management        The transition of a changed or new product through development to deployment into
                         the current production environment with minimum disruption to users. This can occur
                         in a number of ways including, but not limited to: (1) implementation of a change to a
                         product baseline, (2) establishing a new product baseline, and/or (3) a change to a
                         Service Level Agreement.

Change Request           The method for requesting approval to change a baselined product or other controlled
                         item.
Configuration Control    Serves as the change approval authority for baselined products.
Board (CCB)
Configuration Control    The ACA Program CCB Charter establishes the ACA Program CCB and defines its
Board Charter            authority, threshold, responsibilities, and membership.
Configuration            Establishes proper control over approved project documentation, hardware, and
Management               software and assures changes are authorized, controlled, and tracked.
Configuration            Documents the configuration management processes that the ACA PMO will use to
Management Plan          maintain the integrity of configuration items, associated artifacts, and other products
                         throughout the product life cycle as they relate to the technical baseline.
Control Objectives for   An information technology governance framework and supporting toolset that allows
Information              managers to bridge the gap between control requirements, technical issues, and
Technology (COBIT)       business risks. It enables clear policy development and a good practice for information
                         technology control throughout organizations.
                                                                                                                   29
                                                                                                Appendix IV
                                    Glossary of Terms

Term                                                        Definition
Eligibility and         This is one of four ACA process areas to be delivered under ACA Release 3.0. It
Enrollment Process      will provide verification of income and family size and determination of
Area                    advanced premium tax credit.
Enterprise Life Cycle   The IRS’s software development life cycle for information technology projects.
                        It provides the critical framework/foundation for IRS information technology
                        projects. The Enterprise Life Cycle facilitates project success through critical
                        step-by-step discipline and structure.
Federal Information     A statute that requires agencies to assess risks to information systems and
Security Management     provide information security protections commensurate with the risks. The
Act                     Federal Information Security Management Act also requires that agencies
                        integrate information security into their capital planning and enterprise
                        architecture processes, conduct annual information systems security reviews of
                        all programs and systems, and report the results of those reviews to the Office of
                        Management and Budget. (Title III, P.L. 107-347.)
Framework               A structure that facilitates the understanding of a complex topic by breaking the
                        topic into multiple pieces or features, classifying the features, illustrating
                        relationships between the features, and organizing them in a manner that
                        facilitates visualization and practical usage.
Impact Assessment       An evaluation of a change request to determine its impact on a project’s
                        schedule, cost, other dependent projects, and upstream and downstream systems.
                                                                                                        30
                                                                                               Appendix IV
                                    Glossary of Terms

Term                                                       Definition
National Institute of   A nonregulatory Federal agency within the Department of Commerce responsible
Standards and           for developing standards and guidelines, including minimum requirements, for
Technology              providing adequate information security for all Federal Government agency
                        operations and assets.
Rational RequisitePro   An application used for requirements management. The IRS has established
                        Rational RequisitePro as its Enterprise Architecture standard for requirements
                        management. It is used to capture detailed requirement data such as the
                        requirement text and any supporting attributes to organize or clarify the
                        requirement. The application also has the capability to create and maintain full
                        requirements traceability within a single project or across multiple projects.
Rational Team           The tool the IFSV Project team uses to manage their sprint processes. Rational
Concert                 Team Concert provides a lean collaborative life cycle management solution with
                        agile and formal planning, project reporting, process workflow, work item
                        management, source code management, and build management in a single
                        integrated product.
Requirement             A formalization of a need; it is the statement of a capability or condition that a
                        system, subsystem, or system component must have or meet to satisfy a contract,
                        standard, or specification.



                                                                                                           31
                                                                                                 Appendix IV
                                    Glossary of Terms

Term                                                        Definition
Sprint                 ACA projects conduct a series of “Sprints,” either sequentially or in parallel,
                       within each release. The goal of each sprint is to get a subset of the project’s
                       functionality to a “production-ready” state. At the end of the sprint, the
                       functionality developed will be fully tested (although it will not be put into
                       production until a later date). The duration of each sprint is typically four to
                       six weeks.
Systems Development The scope of activities associated with a system, encompassing the system’s
Life Cycle          initiation, development and acquisition, implementation, operation and
                    maintenance, and ultimately its disposal, which instigates another system
                    initiation.
Waterfall Path         The Waterfall Path is distinguished by sequential development of a solution with
                       planned reviews and formal approvals required before continuation of work. The
                       solution design evolves through a planned progression of successive levels from
                       logical design to development, and then solution components are developed.




                                                                                                          32
                                                     Appendix V
            Management’s Response
              to the Draft Report




Management’s complete response to the draft report
     is included beginning on the next page.




                                                          33
Appendix V




     34
Appendix V




     35
Appendix V




     36
